<html>
<title> - H.R. 4650, THE NATIONAL LEVEE SAFETY PROGRAM ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
            H.R. 4650, THE NATIONAL LEVEE SAFETY PROGRAM ACT

=======================================================================

                                (109-65)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 6, 2006

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
28-280                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                JOHN J. DUNCAN, Jr., Tennessee, Chairman

SHERWOOD L. BOEHLERT, New York       EDDIE BERNICE JOHNSON, Texas
WAYNE T. GILCHREST, Maryland         JOHN T. SALAZAR, Colorado
VERNON J. EHLERS, Michigan           JERRY F. COSTELLO, Illinois
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               BRIAN BAIRD, Washington
RICHARD H. BAKER, Louisiana          TIMOTHY H. BISHOP, New York
ROBERT W. NEY, Ohio                  BRIAN HIGGINS, New York
GARY G. MILLER, California           ALLYSON Y. SCHWARTZ, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  EARL BLUMENAUER, Oregon
BILL SHUSTER, Pennsylvania           ELLEN O. TAUSCHER, California
JOHN BOOZMAN, Arkansas               BILL PASCRELL, Jr., New Jersey
JIM GERLACH, Pennsylvania            RUSS CARNAHAN, Missouri
TOM OSBORNE, Nebraska                NICK J. RAHALL, II, West Virginia
TED POE, Texas                       ELEANOR HOLMES NORTON, District of 
CONNIE MACK, Florida                 Columbia
LUIS G. FORTUNO, Puerto Rico         JOHN BARROW, Georgia
CHARLES W. BOUSTANY, Jr.,            JAMES L. OBERSTAR, Minnesota
Louisiana, Vice-Chair                  (Ex Officio)
JEAN SCHMIDT, Ohio
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Nicholson, Peter, Ph.D, P.E., M.ASCE, Associate Professor of 
  Civil and Environmental Engineering, University of Hawaii......     8
 Pogue, Pamela Mayer, Chair, Association of State Floodplain 
  Managers, Inc..................................................     8
 Rabbon, Peter, President, National Association of Flood and 
  Stormwater Management Agencies.................................     8
 Riley, Major General Don T., Director of Civil Works, U.S. Army 
  Corps of Engineers.............................................     8

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    32
Costello, Hon. Jerry F., of Illinois.............................    34
Johnson, Hon. Eddie Bernice, of Texas............................    36
Oberstar, Hon. Jamels L., of Minnesota...........................    44

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Nicholson, Peter................................................    38
 Pogue, Pamela Mayer.............................................    46
 Rabbon, Peter...................................................    56
 Riley, Major General Don T......................................    66

                         ADDITION TO THE RECORD

Association of State Dam Safety Officials, statement.............    69


            H.R. 4650, THE NATIONAL LEVEE SAFETY PROGRAM ACT

                              ----------                              


                        Thursday, April 6, 2006,

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Water Resources and Environment, Washington, 
            D.C.
    The committee met, pursuant to call, at 10:00 a.m., in Room 
2167, Rayburn House Office Building, Hon. John J. Duncan, Jr. 
[chairman of the committee] presiding.
    Mr. Duncan. I am going to go ahead and call this hearing to 
order. This is a hearing on H.R. 4650, The National Levee 
Safety Program Act of 2005.
    I would like to welcome everyone to the hearing today. I 
was very pleased that prior to the end of the first session of 
the 109th Congress, Subcommittee Ranking Member Eddie Bernice 
Johnson, Chairman Don Young, Ranking Member Jim Oberstar and I 
introduced H.R. 4650, The National Levee Safety Program Act. We 
have seen in the Gulf Region what can happen when hurricane and 
flood protection infrastructure is inadequate or fails to 
perform. Yet more Americans are moving to coastal areas where 
the risk of hurricanes and floods is greatest. In the south 
Atlanta region, the coastal population grew 51 percent from 
1980 to 2000, and is expected to increase another 13 percent by 
2008. Along the Gulf of Mexico, the population has also grown 
dramatically, and is projected to grow an additional 12 percent 
just by 2008.
    We do not know where the next hurricane or flood will hit, 
but we do know that many of our major cities, including parts 
of Washington, D.C., have a greater probability of flooding 
than did New Orleans. For example, the City of Sacramento, 
California, has almost twice as many people as New Orleans, yet 
it has less flood protection than any other major city in 
America. Cities like Houston, St. Louis and Miami also are at 
risk. We cannot treat citiesdifferently unless we have a policy 
reason that we can explain and justify to our constituents.
    As we have learned from recent levee failures, our 
infrastructure is aging. What we know about the existence and 
condition of these other levees we often learn when one fails 
or is overwhelmed by a flood event. For instance, the State of 
California recently declared a state of emergency in the 
central valley in anticipation of the failure of 24 levees. 
According to the State of California, it would cost $5 billion 
to make critical delta levees, not all delta levees, but simply 
the critical ones, stronger in the face of flood and seismic 
events in the central valley.
    In the past, this Committee has taken steps to ensure that 
the Nation's flood damage reduction infrastructure is properly 
inventoried, inspected and assessed. In 1986, the Congress 
authorized the National Dam Safety Program Act to conduct an 
inventory and assessment of all dams nationwide. This has been 
a successful program and we have modeled the National Levee 
Safety Program Act after that law.
    The national inventory of dams shows that 45 percent of all 
Federal dams are at least 50 years old and that 80 percent of 
them are at least 30 years old. We know less about the status 
and capabilities of our levees. There has never been a national 
inventory of levees. Little is known about the current 
condition of both Federal and non-Federal levees, including 
whether these levees were designed to meet current conditions 
or whether they have been properly maintained by the non-
Federal interests.
    Over the decades, levees have been built by different 
entities at different times and to different standards. They 
have been linked together to provide a protective system, but 
with such a mixture of conditions the true level of protection 
may be in doubt. Over time, development has taken place behind 
some of these levees so that much more may be at risk in terms 
of lives and economic resources.
    There is so much that we do not know about the levees in 
America that we cannot be sure how safe our cities and towns 
really are. We need more information. That is why we have 
introduced the National Levee Safety Program Act, to get an 
inventory of levees in the United States and work with the 
States to encourage them to develop their own levee safety 
programs.
    We have worked closely with members on both sides of the 
aisle and the various groups to advance the goal of improving 
the infrastructure in the most cost effective manner. We have 
received favorable feedback from diverse parties. The National 
Levee Safety Program Act embraces innovative solutions for the 
inventory and subsequent assessments of these structures.
    H.R. 4650 includes provisions for the Army Corps of 
Engineers to conduct an inventory, inspections and assessments 
of all levees nationwide. The legislation establishes an 
interagency committee on levee safety to create standards for 
Federal levees and creates a National Levee Safety Review Board 
made up of Federal, State, local and private citizens to 
monitor levee safety and implementation of State levee safety 
programs.
    The bill also provides incentives for States and localities 
to participate in the program.
    In order to make the best investment of taxpayer dollars, 
we need to do an inventory and inspection and assessment of 
levees across the United States. We need to know what they are 
protecting and what is the level of risk associated with these 
levees. This should help us prioritize future spending on flood 
protection. I hope that our witnesses today will help us 
understand the current condition of our hurricane and flood 
protection infrastructure and what it should look like in the 
future.
    I hope to hear some suggestions on how this good 
legislation can be made better. I look forward to an 
educational and enlightening hearing.
    Let me now turn to my good friend, the Ranking Member, Mr. 
Johnson, for any opening statement she wishes to make.
    Ms. Johnson. Thank you very much, Mr. Chairman, for holding 
the hearing today on an issue that is of tremendous to our 
communities: the condition of our Nation's flood control 
infrastructure.
    In the aftermath of the 2005 hurricane season, the American 
public has again focused on the importance of adequately 
designed, constructed and maintained flood control 
infrastructure and protecting lives and livelihoods. The image 
of flooding streets, homes and businesses, as well as the 
thousands of displaced families, have again brought home the 
message that we cannot take our Nation's infrastructure for 
granted. The consequence of failure is far too great.
    In the weeks and months that followed Hurricanes Katrina 
and Rita, numerous communities throughout the Country started 
asking questions about their own disaster response plan, 
including their potential vulnerability to flooding. 
Unfortunately, one lesson learned from this exercise was that 
no single entity could quantify the Nation's risk of flooding, 
in part because no single entity has ever conducted a 
nationwide assessment of the adequacy of our flood control 
infrastructure.
    In fact, no single entity even knows where all the flood 
control infrastructure is located, let alone its condition. In 
response to this need, Chairman Duncan and I introduced H.R. 
4650, The National Levee Safety Program Act. This legislation 
represents the first step in a larger effort to locate and 
assess the conditions of the Nation's flood control 
infrastructure and to develop uniform guidelines for levee 
safety. However, this legislative proposal takes only the 
smallest steps in addressing the larger issues of assessment, 
adequacy or proper maintenance of flood control infrastructure.
    Mr. Chairman, last year, the American Society of Civil 
Engineers released its fifth report card on the condition of 
the Nation's infrastructure. On average, they gave the Nation a 
D grade, and estimated that more than $1 trillion would be 
needed to address the backlog of maintenance and required 
infrastructure upgrades.
    Unfortunately, this report card did not or was not able to 
include an assessment of the Nation's flood control 
infrastructure, other than dams. Yet in spite of the obvious 
need for increased spending on infrastructure, the 
Administration and the Republican-led Congress have proposed 
cutting funding for both the--not you--both Corps' construction 
and operation and maintenance activities, further perpetuating 
the backlog of necessary work on flood control protections.
    Although I am pleased to work with the Chairman on this 
legislation to identify and hopefully one day assess and 
improve the conditions of the Nation's flood control 
infrastructure, I remain concerned whether we will take the 
next steps in ensuring adequate protections for our citizens' 
lives and livelihoods. Once we know where the problems are, 
will we have the fortitude to ensure that potential gaps in the 
Nation's flood control infrastructure are addressed?
    Again, I thank the Chairman for holding this hearing, and I 
look forward to hearing our witnesses' testimony. Thank you.
    Mr. Duncan. Thank you very much, Ms. Johnson.
    Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Just a brief couple of comments. I want to thank you and 
Ms. Johnson for the legislation. I have another hearing going 
on and I may have to step out. I am not sure if I will be here 
in time for questions, and I can probably call General Riley 
and some of the other witnesses a little bit later on this. But 
I would like to get these questions on the record.
    I know there is a vast array of levees around the Country, 
not to mention those in the Gulf of Mexico or Sacramento or 
places like that. The focus is on Louisiana, and I hope I can 
stay to get the answers a little bit later, but how many miles 
of levees in Louisiana need to be rebuilt? How many are going 
to be rebuilt? How many are going to be moved from one side of 
the road to the other side of the road? Is there an evaluation 
as to which ones should be moved? Because I understand in 
Plaquemines Parish, there is going to be quite a long stretch 
that is actually going to be moved, which is along the 
Mississippi River, the west side of the Mississippi River, to 
the other side of the road, because of the failing nature of 
that particular levee.
    And should we consider moving people away from areas 
permanently where levees are failing or don't meet a reasonable 
cost benefit analysis? This is a big job, and we are here to 
help. We are from the Government. Well, actually, we are here 
from Congress, and we are here to help.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you, Mr. Gilchrest.
    Ms. Tauscher.
    Ms. Tauscher. Is my friend from Maryland suggesting that 
the Congress is not the Government?
    [Laughter.]
    Ms. Tauscher. Thank you, Mr. Chairman. I have a brief 
statement and I really appreciate the time to be able to engage 
these fine witnesses, especially our witness from California.
    I will submit my whole statement for the record and I will 
try to be brief. But I think what is clear is the magnitude and 
the content of today's hearings cannot be underestimated, both 
for our Nation and for my California district in particular.
    While the Federal, State and local governments have 
invested a great deal of capital in building a wide array of 
barriers and flood barriers, we know that we have done too 
little to ensure that those systems have been maintained to an 
appropriate standards. The protection of human life and the 
viability of our Nation's economy requires our immediate 
attention and action.
    I congratulate the Chairman and Ranking Member for 
introducing The National Levee Safety Program Act. I believe 
the Chairman's ambitious yet necessary plan to inventory and 
assess our Nation's levee systems is a way we can begin to get 
our arms around the scope of the problems we are facing. Using 
the best science available, we should conduct a detailed review 
of design, maintenance and natural conditions that play a role 
in whether a levee will succeed or fail.
    Mr. Chairman, in my own district in California, which 
contains a large portion of the San Francisco Bay Delta, we 
know what it is like to live behind, to maintain and to rely on 
levees. The Bay Delta, a vast network of earthen levees, 
supplies drinking and agricultural water to over 22 million 
Californians, and millions of acres of farm land. And more and 
more of these levees are protecting the lives and property of 
thousands of Californians living in my district.
    Should there be a massive levee failure in the Delta, not 
only would there be a great risk of loss and life and property, 
but California's major water supply would essentially be shut 
off. On a smaller scale, we have begun to take similar action 
to that laid out in the Chairman's bill. As part of the Cal-Fed 
legislation adopted in the 108th Congress, the Army Corps of 
Engineers is carrying out both the Cal-Fed Levee Integrity 
program and the Delta Risk Management Strategy.
    These two programs are geared to identify and repair the 
Bay Delta's most vulnerable levees while laying out a strategy 
fore the long term future of the levees in the Delta. 
Unfortunately, the President's budget didn't include funding 
for either of these programs, a mistake which I hope this 
Congress will correct.
    Mr. Chairman, I point out the work going on in the Bay 
Delta because I believe it is a good example of why your 
legislation is so important. We first need adequate knowledge 
of the problem we are facing before we can adopt any remedy. 
And Mr. Chairman, I would also like to speak to one issue which 
I hope you will work with me on as your legislation moves 
forward.
    As the Chairman knows, there are thousands of miles of 
levees that the Army Corps of Engineers had no part of 
constructing. For example, in the Bay Delta, it is my 
understanding that there are only two levees there that were 
built or maintained by the Corps. This is out of hundreds of 
levees in the Delta.
    While I know the Chairman's bill will contain language to 
help ensure that all levees are inspected and catalogued, I 
would like to work with the Chairman to explore language which 
would more explicitly include these non-Corps levees.
    Mr. Chairman, I thank you for your indulgence this morning. 
I look forward to working with you to advance this legislation 
and to today's testimony, and I yield back the balance of my 
time.
    Mr. Duncan. Thank you very much, Ms. Tauscher.
    Mr. Pascrell.
    Mr. Pascrell. Thank you, Chairman Duncan, Ranking Member 
Johnson. It is a tremendous shame that it took Katrina, a 
disaster, for the Federal Government to focus on the importance 
of this flood protection infrastructure, such as levees. While 
we cannot control mother nature, proper flood control measures 
could have reduced the number of deaths and limited the 
economic devastation around the Gulf.
    I feel so strongly about the mission of the Committee as we 
continue to call attention to the larger issue of the need for 
infrastructure investments nationwide. The Nation witnessed the 
catastrophic consequence that is possible when these levees 
fail or are breached by massive flooding. We must not let 
Katrina's hard-learned lesson pass us by.
    But it is important to recognize that many other cities 
around the Country face the same if not greater risk of 
flooding. In fact, it was painfully clear to the people of 
Northern California just this past week. Fortunately, there 
were no injuries or loss of life.
    In New Jersey, levees protect both urban and rural areas. 
However, the location and conditions of many of the levees are 
unknown. Nobody knows where they are, to the Federal or State 
government. We do not know how many people depend on levees to 
protect their homes and businesses from flooding. I daresay 
that those people don't know, either, how significant the levee 
may be.
    We have a very serious problem throughout this Nation and 
various States about flood mapping. Much of that mapping is 
antiquated, no longer is timely, needs to be reviewed. I know 
that this is basically controlled by each State. What is the 
Federal Government's responsibility in making sure that the 
flood maps reflect the exact situations now?
    While there are now strict engineering standards required 
when a Federal levee is designed and built, there are certainly 
thousands of miles of other levees built by States, towns and 
farmers and landowners. Some of these are well built, well 
maintained levees. Others are not.
    One might ask, how many miles of levees are not even 
accounted for? Do we have an estimate of that?
    Time, too, has taken its toll. Natural and man-made changes 
have altered the landscape and the effectiveness of existing 
levees. Levees originally designed to protect farm land may now 
be protecting homes or businesses. It is unfortunate that we 
only learn about the condition of these and other levees when 
they fail or the system is overwhelmed. I am therefore pleased 
that we are here today to discuss H.R. 4650, which will 
establish a Federal program to work in partnership with the 
States to help remedy the situation. The inventory, the 
inspection, the assessments of our Nation's levees will allow 
the Corps of Engineers and States to work together to identify 
unsafe structures.
    Is the Army Corps up to doing this, Mr. Chairman? And do 
they have the resources and will we provide the money for them 
to do it? Or are we simply whistling in the wind?
    Than you, Mr. Chairman.
    Mr. Duncan. Thank you very much, Mr. Pascrell.
    Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman. I appreciate your 
having this hearing today and highlighting the importance of us 
taking a close look at the levee system in this Country, 
especially for you introducing The National Levee Safety 
Program Act.
    There are about 15,000 miles of levees in this Country, and 
while most of them, the majority of them I would say, were well 
constructed and well maintained, we don't know how many of them 
or what percentage for sure are not maintained the way they 
should be, or maybe it was poor construction when they were put 
in. I think we can't be in the dark over knowing that.
    I know in Pennsylvania, one of my communities, Meyersdale, 
Pennsylvania, in 2004, Ivan washed the levee away. If we would 
have known the condition before the hurricane hit, we might 
have been able to save thousands and thousands of dollars of 
property damage. But it is extremely important that we know 
that and I think it's important to know if the Corps is up to 
the challenge.
    And again, Mr. Chairman, thank you for introducing your 
legislation. We should be shedding light on this matter, so 
thank you.
    Mr. Duncan. Thank you, Mr. Shuster.
    Mr. Taylor.
    Mr. Taylor. I'm actually going to have to leave. Thank you, 
Mr. Chairman.
    Mr. Duncan. Okay. Mr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman.
    I too appreciate your bringing this legislation forward and 
holding this very important hearing. Certainly in the wake of 
what happened on the Gulf Coast, in the previous hurricane 
season, this is a very timely subject and very worthy of 
investigation. So I look forward to hearing the testimony.
    Mr. Duncan. Thank you very much.
    Mrs. Schwartz?
    Mrs. Schwartz. Nothing at this time, Mr. Chairman, thank 
you.
    Mr. Duncan. Mr. Miller?
    Mr. Miller. Thank you. I am very interested in the 
testimony today.
    I am not sure what authority the Army Corps has over State 
and private levees, so I would like to hear that addressed. And 
there are some questions arising from what should be required, 
possible failures near levees, and I am not sure how we 
determine that unless we know they are prone to failure. And 
requiring flood insurance and such in those areas that we are 
not sure that are really at risk is of tremendous concern to me 
in California. So I look forward to the testimony today.
    Thank you.
    Mr. Duncan. Thank you very much.
    We have a very distinguished panel here today. Representing 
the U.S. Army Corps of Engineers is Major General Don T. Riley, 
who has been with us before, the Director of Civil Works. 
Representing the National Association of Flood and Stormwater 
Management Agencies, Mr. Peter Rabbon, who is the President of 
that group. He comes to us from Sacramento.
    Representing the Association of State Floodplain Managers, 
Inc. is Ms. Pamela Mayer Pogue, who is the Chair of that group. 
She is from Cranston, Rhode Island. And finally, representing 
the American Society of Civil Engineers is Dr. Peter Nicholson, 
who is Associate Professor of Civil and Environmental 
Engineering. It doesn't say where he is professor, but maybe he 
can tell us that. He is from Honolulu, Hawaii.
    So we have witnesses that have come from very long 
distances. We are very grateful for each of you being here. We 
always proceed in the order the witnesses are listed in the 
call of the hearing. So General Riley, you may begin your 
statement.

  TESTIMONY OF MAJOR GENERAL DON T. RILEY, DIRECTOR OF CIVIL 
  WORKS, UNITED STATES ARMY CORPS OF ENGINEERS; PETER RABBON, 
    PRESIDENT, NATIONAL ASSOCIATION OF FLOOD AND STORMWATER 
MANAGEMENT AGENCIES; PAMELA MAYER POGUE, CHAIR, ASSOCIATION OF 
 STATE FLOODPLAIN MANAGERS, INC.; PETER NICHOLSON, PH.D, P.E., 
    M.ASCE, ASSOCIATE PROFESSOR OF CIVIL AND ENVIRONMENTAL 
               ENGINEERING, UNIVERSITY OF HAWAII

    General Riley. I am pleased to be here today and have the 
opportunity to speak to you about the National Levee Inventory 
and Technical Assessment Program. My testimony today will 
provide a brief background and update to the Committee on the 
progress made to date by the Corps of Engineers in the 
development of a national levee inventory.
    Although nearly 9,000 miles of levees have been constructed 
by the Corps of Engineers, this accounts for only a portion of 
the total number of structures protecting communities. 
Presently, there is no data base or single source of 
information concerning these structures.
    Emergency supplemental funds appropriated in December 2005 
included $30 million for the Corps of Engineers to initiate a 
national inventory of flood and storm damage reduction 
projects, including an assessment of the condition of levee 
projects.
    In addition, the President's budget for fiscal year 2007 
includes $20 million to continue this effort. To be effective, 
we are coordinating this effort with the FEMA Map Modernization 
Program, and we envision that data from the inventory will 
provide technical information to be used as a basis for 
periodic recertification of levees as required by FEMA for 
flood mapping purposes.
    The inventory will be a geospatial data base that will 
allow data to be incorporated into the flood maps prepared by 
FEMA. The Corps will also continue to coordinate with the 
Association of State Floodplain Managers and the National 
Association of Flood and Stormwater Management Agency on this 
inventory.
    We are presently developing a criteria for assessments and 
we will develop these procedures and methods for conducting the 
assessments in a uniform and consistent manner. The assessments 
will rank projects using risk to human life and benefits of 
protecting population centers and the national inventory will 
provide an overall condition of levees and indicate areas of 
higher risk.
    We are committed to putting a program in place that will 
enable us to better evaluate the risks to public safety in 
areas located behind the levees and help decision makers set 
priorities for future investments. This work will also ensure 
that the public can make more informed decisions on building 
homes, locating business and purchasing flood insurance, based 
on the actual risk of flood and storm damages where they live.
    This concludes my statement. Again, I appreciate the 
opportunity to testify and I will be pleased to answer any 
questions you might have. Thank you.
    Mr. Duncan. Thank you very much.
    Mr. Rabbon.
    Mr. Rabbon. Good morning. Pete Rabbon, with the Department 
of Water Resources, State of California, and as President of 
NAFSMA, I am pleased to present this testimony on their behalf.
    NAFSMA is an organization of over 100 local and State 
organizations that provide services to over 76 million citizens 
of the Nation, in cooperation with the Corps, FEMA and EPA. We 
are supportive of The National Levee Safety Program Act and 
today we offer suggestions to the Act for your consideration.
    First, we recommend you focus on a national levee 
inventory. You must identify all the Federal, State, local and 
private levees. We need to know the universe of levees. As an 
example, California has embarked on such a program. We have 
located almost 12,000 miles of levees in California statewide, 
of only which approximately 2,000 are Federal levees. We 
suggest the inventory program be administered at the Federal 
level, but developed with local and State input such as to 
maximize the use and maintenance of such a data base.
    Secondly, assessments. The bill does speak of inspections 
and inspections are key for operations and maintenance and 
identifying gross problems with a levee. However, a strong 
assessment program is critical to determine the true condition 
of the levee. As an example, California estimates it will cost 
approximately $100 million to do technical assessments on the 
2,000 miles of Federal levees.
    Thirdly, we suggest you consider linking other Federal 
agencies and programs to maximize the benefit of H.R. 4650. For 
example, FEMA's remapping program, which we heard mentioned, 
would benefit greatly from having the levee information that 
could be developed by the Corps of Engineers through such an 
inventory program.
    Additionally, H.R. 4650 recommends an inspection program. 
The Corps already has an inspection program of completed works 
for existing Federal levees.
    Fourth, establishment of the levee safety program and the 
National Levee Safety Review Board should consider having local 
and regional representation. This is for two reasons. First, 
the non-Federal partner with the Corps of Engineers on levee 
projects is almost always a local or regional entity, such that 
they are the party responsible for operations and maintenance 
of the levee.
    Secondly, if this is to be a broad program, the land use 
decisions are made by local and regional entities. So there are 
two reasons why we strongly recommend local and regional 
involvement.
    Fifth, funding. Adequate funding is critical. Using 
California as an example again, we have embarked on a five year 
program for developing a levee data base. The program is 
expected to cost $2.5 million total, and this is strictly for 
California. It will develop a geospatial data base. It will 
allow us to locate all the levees. We will be able to populate 
the data base with available data and have a gross ranking, and 
gross is key on this, of the criticalness of the various 
levees.
    That program in itself is $2.5 million. It does not include 
maintenance of the data base or completely filling that data 
base.
    I would like to add two items that are indirectly related 
to The National Levee Safety Program Act, but I think critical 
for your consideration. First is the Corps' policy and 
guidelines, that you look closer at that, because those are 
guidelines to look at economic benefits of protecting property 
and infrastructure. Today, after the devastation we have seen, 
we suggest you look at a fundamental concept of adding 
protecting lives and providing public safety when determining 
what projects to fund through the Corps of Engineers programs.
    Then finally, we suggest you consider broadening the goal 
of The National Levee Safety Program Act and consider creating 
a flood management technical advisory committee. And the 
mission of that committee would be to bring together the 
various Federal agencies to facilitate and coordinate Federal 
policies, so that a package of compatible and implementable 
Federal guidelines exists for future flood prevention, response 
and recovery activities.
    Thank you for your time.
    Mr. Duncan. Thank you very much, Mr. Rabbon.
    Ms. Pogue.
    Ms. Pogue. Good morning, Mr. Chairman, Ranking Member 
Johnson and members of the Subcommittee.
    I am Pam Pogue, Chair of the Association of State 
Floodplain Managers. My real job, if you will, is I am the 
State floodplain manager from Rhode Island.
    We appreciate the initiative of this Committee under the 
strong leadership of Chairman Duncan to address our Nation's 
urgent need for more data and better information about where 
our levees are and their physical condition. ASFPM supports 
H.R. 4650 in general, but would also like to provide you with 
suggestions on how we feel the bill might be strengthened.
    The catastrophic hurricane disasters of this past year 
vividly remind the Nation that we are vulnerable to the effects 
of natural hazards, especially flooding, and that we must have 
programs, policies and institutions that can adequately handle 
these events, efficiently use taxpayers' money and build a more 
sustainable future for our citizens. Nothing less than our 
Nation's prosperity and viability are at stake.
    The Association of State Floodplain Managers has over 9,000 
members and 22 State chapters. We represent the State and local 
officials and other professionals engaged in all aspects of 
flood loss reduction, floodplain management and hazard 
mitigation. This includes mapping, engineering, planning, 
community development, hydrology, forecasting, emergency 
response, flood protection projects and insurance.
    Many of our members work in communities impacted by 
Hurricanes Katrina and Rita and work with organizations 
assisting those communities to rebuild. All Association members 
are concerned with working to reduce our Nation's flood related 
losses and in rebuilding a safer Gulf Coast.
    Our State and local officials are the Federal Government's 
partners in implementing programs and working to achieve the 
effectiveness of flood loss reduction. Make no mistake about 
it: the potential for levee failure with catastrophic 
consequences and human suffering is not just a New Orleans 
problem. Levees in California are a disaster waiting to happen, 
complicated with earthquake risk, for example.
    Every State has levees. We just don't know where they are, 
the physical conditions of these structures or the number of 
people and structures and critical facilities at risk behind 
these levees. All of this points to the need for a 
comprehensive levee safety program for the Nation and for 
national inventory of levees.
    As I mentioned previously, ASFPM is in support of H.R. 4650 
in general. We have a few suggestions. First of all, as many of 
the panel members have already mentioned, focusing first on an 
inventory of levees is critical, with a cursory assessment of 
risk for each. It is critical that data be collected in order 
to make any determination of the magnitude of this problem. 
This data will be a vital foundation for the design of a levee 
safety program.
    Secondly, the long term levee program will have to focus on 
States because they are the only entities with authority to 
regulate design, construction, operation and maintenance of 
levees. The Federal Government can encourage but cannot 
mandate.
    Third, incentives to States must be built into a levee 
safety program. Perhaps levee safety expenditures can be banked 
against the non-Federal share of future disaster costs in that 
State.
    Fourth, levee data must be geospatial and readily 
accessible for ongoing inventory and risk assessment and in a 
manner compatible with other Federal data bases, such as FEMA's 
Mapping and Modernization Program, the U.S. Geological Survey 
and the NOAA's weather data program.
    Safety standards for levee construction must be developed. 
This should establish criteria and definitions for high, 
moderate and low risk levees to allow setting for priorities. 
We need to know, where is the real risk with these various 
levees.
    Sixty, detailed engineering analysis and design of 
engineering remedies is the function of levee owners and 
sponsors, not the Federal Government. There is ample expertise 
in the private sector for non-Federal levees. Federal and State 
policy groups should be charged with recommending standards for 
various levees in the Nation. The Association recommends 
standards for urbanized areas and critical facilities using at 
least a .2 percent or 500 year flood event and in coastal 
areas, a category five storm surge.
    Finally, levees should not be built to protect that is 
undeveloped. As a Nation, we have a long history of taking our 
rural infrastructure and upgrading the infrastructure to meet 
the demands of growing and expanding populations. The dirt farm 
road becomes the paved farm road, then the market road, which 
then becomes State highways as the population expands to meet 
those needs. No such similar upgrade, however, in 
infrastructure can be found with many of our Nation's levees. 
In essence, we are pretending that a dirt farm road can serve 
the same function as an interstate highway.
    In transportation, this failure to plan, improve and 
maintain public roadways leads to a traffic jam. In levee 
management, this failure to plan, upgrade and maintain leads to 
catastrophic damages, loss of life and loss of property, 
potentially destruction of a local economy.
    Lack of available data on levees and the inability to 
accurately know where the people are at risk behind them are 
two very serious problems. With specific regard to H.R. 4650, 
we think the bill should focus on the Corps of Engineers' 
production of an inventory of all levees in the Nation, or at 
least those that pose a subset highest risk to humans. 
Secondly, provide an assessment of the general condition of 
those levees, and third, provide the data base that can lead to 
a national levee safety program between States and levee 
owners.
    ASFPM believes that a properly designed State levee safety 
program is appropriate. The program presented in this bill is 
patterned after the State dam safety programs and the Federal 
dam safety program, which have some inherent weaknesses. These 
programs have become in essence a permit function and have led 
to a stovepiping effect, which in the case of levee safety 
could effectively separate levee safety from management within 
the floodplain. A State levee safety program is integral to the 
State's floodplain management program.
    We feel the funding is inadequate at $10 million a year. In 
terms of engineering studies, we see this part of the bill as 
potentially a real problem. We don't think the Federal 
Government should be in the business of performing engineering 
inspections and designing engineering remedies. There is plenty 
of private sector expertise. Levee owners should be told to 
hire an engineer for inspection and design. The Corps should 
collect data and do cursory inspection to report on the 
heights, general condition and maintenance and to inform owners 
in the State of their findings. This should only be done for 
levees in the high and medium risk categories.
    We do not believe that the Corps has the authority to order 
repairs for levees. States can do so if they have a law to that 
effect and pass them, as some have.
    Mr. Chairman, even before the 2004 and 2005 hurricane 
seasons, flood losses in the Nation exceeded $6 billion a year. 
I an the Association of State Floodplain Managers greatly 
appreciate the chance to provide our thoughts on these issues. 
We are committed to working with you and your Committee in 
order to reduce the flood losses in this Nation.
    Thank you.
    Mr. Duncan. Thank you very much, Ms. Pogue.
    Dr. Nicholson, I understand you are from the University of 
Hawaii. You are welcome here. You may begin your testimony.
    Mr. Nicholson. Thank you.
    Good morning, Mr. Chairman, Ranking Member Johnson, members 
of the Subcommittee. My name is Peter Nicholson, as you have 
heard. I am pleased to appear today to testify on behalf of the 
American Society of Civil Engineers as you consider H.R. 4650, 
The National Levee Safety Program Act. I am a member of ASCE 
and I chair ASCE Geo-Institute's Committee on Embankments, Dams 
and Slopes.
    In 2005, last fall, I assembled an independent team of 
experts and traveled to New Orleans to collect data and make 
observations necessary to carry out the assessment of the 
performance of the flood control levees in New Orleans after 
Katrina.
    As engineers, our paramount concern is for the safety, 
health and welfare of the public. We have learned a great deal 
from the tragedy of New Orleans, and in order to help prevent 
future loss of life and property in Louisiana and elsewhere in 
the Country. We support the Federal, State and local agency 
efforts to ensure that all infrastructure systems are one, 
robust, strong enough and reliable enough to do the job for 
which they are designed; to contain redundant systems to 
prevent total system failure; and to ensure that these systems 
are resilient enough to allow them to be quickly repaired when 
the inevitable failures do occur.
    Based on these basic engineering principles and our 
findings in New Orleans, we believe that Congress should enact 
H.R. 4650 with some modifications. ASCE has some policy 
recommendations for H.R. 4650 and specific amendments to 
recommend to the Subcommittee. For the levee inventory, which 
we have been hearing is of paramount importance, the bill 
authorizes the Corps to maintain an inventory of levees at its 
discretion. The inventory should be compulsory. The Corps needs 
to account for every Federal, State, local and privately owned 
levee in the Country. Without one, we run the risk of missing 
potentially life-threatening conditions with levees that are 
not accounted for.
    The national inventory of dams, the data base maintained by 
the Corps, covers all dams in the United States, including 
State and local dams and privately-owned dams as well. The 
levee system requires a correspondingly complete survey.
    Regarding levee inspections, the bill would require the 
Corps to carry out one-time inspection of every federally-
funded levee. We believe the bill should be amended to require 
periodic levee inspections as well as the identification and 
inspection of larger independent flood and storm protection 
system within which the Federal levees function.
    The bill also requires States to carry out levee 
inspections at least once every five years for levees posing 
the greatest danger to human life, in order to receive 
assistance to support the levee programs. We believe this 
provision is too limited. Every levee, whether owned by 
Federal, State or local agencies, or by private entities, that 
would pose a significant threat to human life and property in 
case of failure should be inventoried and inspected.
    This category would consist of levees deemed to pose a high 
hazard in the event of a failure, a category comparable to the 
requirements for high hazard dams under The National Dam Safety 
Act.
    Regarding peer reviews, ASCE strongly supports the use of 
independent project peer reviews for every new civil 
engineering works project or significant modification to 
existing systems whenever any one of four key principles is 
implicated. Sound engineering principles require independent 
peer reviews by outside experts when one levee's performance is 
critical to public health, safety and welfare, when levee 
reliability on emergency conditions is critical, when using 
innovative materials or techniques to build levees, or when the 
levee design is lacking in redundancy or short construction 
schedule.
    We also believe that America's civil works infrastructure 
remains vulnerable to man-made attacks. H.R. 4650 should be 
amended to require a court to carry out vulnerability risk 
assessment to determine which of America's major levees may be 
susceptible to destruction by terrorists.
    Regarding appropriations, the bill authorizes $60 million, 
$10 million a year for six years. The overall appropriation 
level we believe should be doubled to $120 million. We 
recommend an additional authorization of $20 million in the 
first three years to conduct the national levee inventory 
required under Section 4.
    ASCE believes the bill should be amended to authorize 
annual appropriations for the creation and maintenance of levee 
safety programs within the Corps of Engineers. Specifically, $7 
million annually for State assistance to implement levee safety 
programs, $1 million annually for the maintenance of national 
levee inventory, $1 million annually for the bill's research 
program on levee safety training programs.
    That is the end of my testimony. Thank you, Mr. Chairman. I 
would be pleased to answer any questions you may have.
    Mr. Duncan. Thank you very much, Dr. Nicholson. Very fine, 
very informative testimony by all the witnesses.
    I am going to go first, in my members, go first to Mr. 
Gilchrest for any questions that he has.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    I would ask basically the same questions that I went 
through earlier. But I would add, we don't have the same kind 
of problems in Maryland as I am sure they do in Sacramento. I 
haven't seen the levees in Sacramento. I have seen extensive 
levee systems in Louisiana that I know are under great scrutiny 
at this time and also being repaired and analyzed and so on.
    I am not sure if you can answer these questions at this 
point. But Mr. Chairman, I would like in some way to have a 
follow-up so these questions can be given to the Committee. I 
guess I would say the first question is, how many miles of 
levees in Louisiana or in and around Sacramento, California, 
need to be rebuilt? Is that an appropriate question? Is there 
an answer that someone can come up with that?
    General Riley. Mr. Gilchrest, if I could take the first 
stab at it. In the greater New Orleans area, down in 
Plaquemines Parish as well, and across the river, there is 
about 350 miles of levee system there. During Katrina, 169 
miles of those levees were damaged. We are repairing all 169 of 
those miles and those projects will be complete this June.
    You did ask also a question about any that might be moved. 
The only thing that will come close to that is, we do have one 
proposal we're considering, there are non-Federal levees in 
Plaquemines Parish, about 35 miles, that might be appropriate 
to incorporate into the Federal system. Those levees, though, 
are really simply soil that was piled up from the wetlands. So 
we wouldn't build on top of those. We would move off to the 
side and really re-engineer a new levee, if the Administration 
chooses to propose that.
    Mr. Gilchrest. So those are levees along the Mississippi?
    General Riley. No, sir, the Mississippi River levee itself 
would not be moved. These ones in Plaquemines are on the back 
side off the river on the wetlands side of the Parish.
    Mr. Gilchrest. I see. You can't build on them, so they 
would have to be moved?
    General Riley. Moved to the land side of that levee rather 
than the wetlands side. We would want to avoid as much as 
possible any environmental impacts. So we would want to build 
new levee toward the land side of those existing levees.
    Mr. Gilchrest. So that is about 35 miles. Is that a 
contiguous 35 miles?
    General Riley. Yes, sir, it is, on the west bank of 
Plaquemines Parish.
    Mr. Gilchrest. I see.
    General Riley. That is presently under consideration by the 
Administration.
    Mr. Gilchrest. Were they damaged during the two previous 
hurricanes, those 35 miles?
    General Riley. Yes. Those are again relatively small, non-
Federal levees.
    Mr. Gilchrest. Do you have an estimate of the cost for 
those, that 35 miles?
    General Riley. No, sir, in fact we were looking over all 
those figures last night. All those figures are under review 
right now.
    Mr. Gilchrest. You have made a recommendation to move about 
35 miles of those levees. If that recommendation is approved, 
how long would it take to actually start construction?
    General Riley. Well, sir, given certainly authority and 
funding, we could start relatively quickly because of the 
contracts we already have in place in the area.
    Mr. Gilchrest. So in your estimation, in the Louisiana 
area, only about 35 miles of levees in that levee complex would 
actually have to be moved?
    General Riley. Yes, sir, that that's really, in my sense, 
engineering sense, not really a true move of the levees. We 
will just simply build them to the land side.
    Mr. Gilchrest. I see. Any estimate of the cost of the 169 
miles that were damaged, to be repaired?
    General Riley. Sir, I don't have those figures with me. I 
would like to take that question for the record, if I could.
    Mr. Gilchrest. Is there any area, whether it is in 
Sacramento, Louisiana, any area around the Country, of 
significance, similar to what was done in the upper Mississippi 
flood of the early 1990s, where they actually, the Corps and 
other agencies, actually moved communities from one place to 
another? is there any consideration or recommendation in 
Louisiana or maybe Sacramento that the Corps would recommend or 
consider moving a community as opposed to trying to rebuild a 
failing levee system?
    General Riley. Sir, at this point, I think the 
Administration is looking to the State to take the lead on any 
zoning laws which is appropriately within the State's authority 
to do and make any recommendations.
    Mr. Gilchrest. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Duncan. Thank you, Mr. Gilchrest. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I do want to commend the Chairman's interest in this. I am 
a little confused as to what it might accomplish other than 
what already exists.
    So for instance, General Riley, in the case of the levees 
in New Orleans that failed, when were they last inspected?
    General Riley. Sir, the levees that failed, and certainly 
the interior ones, interior drainage canals, those were turned 
over to the local communities. Once the Federal Government 
constructs a levee, we turn it over to local sponsorship, for 
ownership and operations and maintenance. Within the past year, 
prior to the storm, they were inspected by the local owners 
with Corps participation.
    Mr. Taylor. Okay, just for the heck of it, what does a 
levee inspection entail?
    General Riley. Sir, what the levee inspection entails is a 
visual inspection of the levee to ensure that the local owners 
are maintaining that in accordance with the operations and 
maintenance manuals.
    Mr. Taylor. Okay, so again, for a novice, you are talking 
about shrub removal so that the roots don't penetrate the 
levee. Do you run periodic soil borings to see what is going 
on?
    General Riley. No, sir. That would be up to the local owner 
and operator to do that.
    Mr. Taylor. Okay, now, I went to school in New Orleans. So 
on your lake side, you have turned it over to the city.
    General Riley. Yes.
    Mr. Taylor. And the river side is the Corps' 
responsibility. This contrast, on the river side, how often do 
you run soil borings?
    General Riley. Sir, those riverside levees are also run by 
levee boards up through Louisiana. We look for visual 
inspection, visually inspected and any suspect areas then would 
be, we would conduct subsurface investigations. If we had 
noticed any sloughing or any kind of evidence of any other 
impending failure, then we would conduct a further 
investigation.
    Mr. Taylor. What if anything would have tipped you off or 
the New Orleans Levee Board off to the potential problems with 
the 17th Street Canal? What would have tipped you off? What 
would it have taken to have known in advance that something was 
going to happen?
    General Riley. It would have taken a soil boring. Because 
what our forensics investigators have found, and certainly Dr. 
Nicholson has reviewed some of that work, as the failure 
mechanism was due to initial deflection of the wall and then a 
weak layer of clay down below the sheet pile. So to find those 
two conditions, it would have taken soil borings in order to 
determine that.
    Mr. Taylor. Okay. Now, I am kind of familiar with this, 
because I am going through soil borings to rebuild my home. 
They tell me in the case of my home, one soil boring in the 
middle of this 100 feet is going to be enough. But for a really 
accurate test, in a place like Louisiana, how often would you, 
how close together would those borings have to be for you to 
have a level of comfort that would, beneath the surface, that 
needs to be there?
    General Riley. I don't know if can answer that 
specifically, because it would be different for different 
conditions. But additionally what you would have to do, like 
under the Dam Safety Program, any assessment of a levee would 
require looking at tall the plans, looking at previous 
inspection works, doing certainly a surface survey and 
indicators, and looking at recalculating sort of the hydraulics 
of the floodplain.
    So any time there is new development, or a new storm, the 
hydrology of the area changes. So it would require all those 
components, not just borings. So borings 100 feet apart in many 
areas would be more than sufficient.
    Mr. Taylor. I guess what I am getting at, General, is, and 
again, I commend my colleague from Tennessee for wanting to 
help. It is not just a Louisiana problem or an upper 
Mississippi River problem. It is, as he mentioned, a national 
problem.
    What I am concerned about and what I hope we can address 
is, is there really a way to legislative a national program to 
adequately inspect thousands of miles of levees?
    General Riley. Sir, if I could compare to the Dam Safety 
Act, Dam Safety Program, which was legislated in 2002, that has 
many of the necessary components: inspection, inventory and 
interagency committee, dam safety review board. The program, 
which lays out procedures for inspection assessment, the data 
base, research and training program, all those components are 
very, very good components to have in a program.
    And when you have all that, then you can very 
systematically, and of course if it was funded properly, very 
systematically look at the highest risk areas. So that is what 
we do in our Dam Safety Program. We have 620 dams in the Corps; 
there are 80,000 in the Nation. We look at our portfolio of 
dams and then look at what are those that are at the highest 
risk and then begin the more in-depth inspections and 
assessments on those and repairs as necessary.
    Mr. Taylor. Will the Chairman oblige me for one last 
question?
    Mr. Duncan. Sure.
    Mr. Taylor. In the case of the 17th Street Canal, you have 
been at this a long time, and you all are the pros. Is there 
anything that from a visual inspection would have tipped you 
off, you in particular, since you have been doing this for a 
long time, that something was amiss below the surface? Or would 
only a soil boring have told you that something was wrong?
    General Riley. What we don't know, and Dr. Nicholson might 
speak to it as well, is, we know the mechanism of failure, we 
don't know what initiated deflection, whether it was a tree 
that was blown over and caused a seepage path, whether it was a 
swimming pool that was dug behind the levee which reduced some 
of the pressure, whether it was Formosan termites, which there 
is evidence of, or nutria, that there was evidence of.
    So any of those four things could have been visual 
indicators of a problem which may have led to the initiation of 
deflection. We don't know that answer yet. But those are four 
examples that could possibly have indicated a problem.
    Mr. Taylor. Okay, thank you, Mr. Chairman.
    Mr. Duncan. Thank you, Mr. Taylor.
    I won't take the time to give a lengthy or complete answer, 
but as General Riley said, all the experts say that the 
National Dam Safety Program after which this bill is patterned 
has led to great improvements in dam safety all over the 
Country. We hope that this will do the same for our levees.
    The staff tells me that they have found on inspection 
trips, for instance, in New Orleans, they found trees growing 
on some levees, which creates problems. They even found one 
case in which a swimming pool had been built into a levee. We 
do know that throughout the Country, there are many places 
where these State and local levees have not been inspected or 
improved for apparently many years. So we are just trying to--
we know we can't create a perfect situation, but we are trying 
to help, to the extent that we can.
    Mr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman.
    Clearly we have had, down in Louisiana, a lot of problems 
with regard to how the Corps interacts with a lot of different 
local levee boards, and Louisiana just took steps to 
consolidate, which I applaud. I think it was good. I would have 
liked to have seen one levee board, but we have two.
    Could you comment, General Riley, on the difficulties you 
have had or the Corps has had in having to deal with so many 
cost share sponsors in a given locale, such as New Orleans?
    General Riley. I think the challenge, sir, would be typical 
with any project that has a local sponsor. In this case, you 
have a system with multiple local sponsors. Each one of those 
sponsors has different funding sources themselves and different 
ability to fund a piece of their segment of the system. So the 
great challenges is, how do you take components and avoid a 
piecemeal approach, but take a more systematic approach.
    So the cost sharing challenge has caused us to a greater 
challenge, I guess is a better way to say it, and taking a 
systems watershed approach to any hurricane protection or flood 
system like that. So that's probably the greatest challenge.
    Mr. Boustany. Thank you.
    Mr. Rabbon, you were talking about the efforts in 
California. How are you funding this?
    Mr. Rabbon. There are various efforts that we are 
undertaking. The most recent one is the repair of 24 critical 
erosion sites that is being funded through an emergency 
program. The Governor declared an emergency and it did open up 
special funds.
    Other activities that we are moving forward on are 
primarily in cooperation with the Corps of Engineers through 
existing Federal programs. Then the levee inventory program 
that I spoke of is partly funded by the State of California 
general fund. And then we do have a grant from FEMA.
    Mr. Boustany. There is no dedicated tax revenue stream that 
goes onto this, then? It goes through the appropriations 
process at the State level?
    Mr. Rabbon. Correct.
    Mr. Boustany. Okay. Thank you.
    Ms. Pogue, you had made a comment that levees should not be 
built in undeveloped land. Do you include farm land as 
undeveloped land, or how would you deal with very vital farm 
country?
    Ms. Pogue. Not necessarily, sir, but I think what happens 
is we have seen with many of the levees throughout the Country 
is, as they say, if you build it, they will come. You have a 
levee that was initially designed, and we are talking about 
safety standards here, and we are talking about public safety 
and regulatory standards and so forth. If you build a levee to 
a certain standard, you can't then on the other side of that 
levee, if it is built to a lower standard, put in a very dense 
subdivision or critical facilities or those sorts of things.
    So I think what you need to be careful with and what that 
statement is referring to is when you build a levee or you 
design a levee you really have to look at, which we get back 
to, State oversight and local oversight with land use and 
zoning, what is going to be on the other side of that levee.
    Mr. Boustany. What about vital transportation routes? For 
instance, in Louisiana, and of course, starting in Texas and 
going all the way to Florida, we have the intercoastal 
waterway, which is a vital transportation route. I know going 
through my district, the banks of that are not considered 
levee, it is considered spoilbank. So it is up to private 
property owners to maintain it. I can tell you, having visually 
seen what those banks look like prior to the hurricanes, and of 
course afterwards, it caused significant problems.
    Could you comment on vital transportation routes and levees 
and do you think that this is a Federal function, State 
function, some combination? How would you deal with it?
    Ms. Pogue. Funny you should ask. I grew up on the 
intercoastal waterway in Florida, and we had to spend an entire 
summer putting in tiebacks and digging down to the water table. 
So I am very, very familiar with what it is like living on the 
intercoastal waterway. I think again, as we put in our written 
testimony, it does have to be something that comes from the 
States, in those instances where there are non-Federal levees.
    I work with our dam safety program in Rhode Island, and I 
think we have probably one of the worst dam safety programs in 
the Country. Unfortunately, we have 582 dams. And you get back 
to, as you are saying, roadways and so forth, I think it has to 
be put back to the States. I am saying that as a State 
regulator, unfortunately, but there perhaps needs to be 
incentives. One of the things we mentioned in our testimony was 
possibly even putting in mitigation, putting in these right 
things and putting that towards the non-Federal share in the 
event of a public disaster.
    Mr. Boustany. One final question for the panel. Do you 
consider flooding a Federal problem or is it a State or local 
problem?
    Ms. Pogue. If I can jump in real quick, I think it is 
absolutely a State, local problem in addition to a Federal 
problem. One of the things that we said about the levee safety 
program not necessarily modeling after the Dam Safety Act is 
what we have seen with that, is that there is no integration 
between floodplain management and dam safety. I don't have a 
single inundation map for any of the 582 dams in Rhode Island.
    So my comment for the local and State, absolute necessity 
that they get involved, they become part of this. Because it is 
going to be inherently upon them.
    Mr. Boustany. What about the rest of the panel? Any 
opinion?
    Mr. Rabbon. I suggest it is a shared problem, local, State 
and Federal, and even within the Federal Government there is a 
broad range of agencies, the Corps and FEMA, that we need to 
bring together or similarly, we need to bring those types of 
agencies together at the State and local level also.
    Mr. Boustany. Thank you.
    General Riley?
    General Riley. Sir, I think we all speak with one mind on 
this. It clearly is a shared problem. There is a Federal 
interest, of course, in interstate flooding. But clearly, we 
look to the States to take much of the lead in flooding 
problems.
    Mr. Boustany. Dr. Nicholson, do you have a comment?
    Mr. Nicholson. I would agree with my colleagues here. I 
agree it is a shared problem. I think it is important that one 
entity, perhaps a Federal entity, oversees something like this. 
But it has to be on the States and local agencies to actually 
run the program.
    Mr. Boustany. I thank you all.
    Mr. Duncan. Thank you very much, Dr. Boustany.
    Ms. Tauscher.
    Ms. Tauscher. Thank you, Mr. Chairman.
    General Riley and perhaps Mr. Rabbon, I think that in our 
circumstance in the Bay Delta, as you know, we have a large 
watershed, we have a lot of wetlands, we have a big bay, we 
have a bunch of rivers. What we have are hundreds of miles of 
levees. Only two are Federal levees, which I am now gaining the 
importance of that.
    And many of them are private levees. This is agricultural 
land, and many of them have been built over the last 100 years, 
some of them tended to occasionally, some of them tended to and 
breached, some of them completely ignored. I guess I need 
clarification on how exactly we are going to fit into all this, 
because specifically, in our case, there couldn't be in my mind 
more critical infrastructure. I think it crosses across these 
many different definitions of what is important. Twenty-two 
million Californians get their drinking water from there. There 
are hundreds of thousands of people whose lives depend on the 
safety and security of these levees, because they are in the 
way. Agricultural property, not only the value of it, but we 
are the breadbasket of the world.
    So there is a lot of this. So how do I get assurance that, 
number one, we are going to be classified as critical 
infrastructure, and make sure that we are covered in the bill 
that Chairman Duncan is working on, but also how do we get out 
from this definitional problem of not being, of being treated 
like a second class citizen because we are not Federal levees?
    General Riley. Ma'am, if I could just address that in 
comparison to the Dam Safety Program, with all those different 
aspects of the National Dam Safety Program, it would catch 
something like that in a levee safety program. Because the 
value of the data base, the geospatial data base and the 
inventory, then assessments targeted on the highest risk areas, 
whether they are Federal or non-Federal. Of course, we would 
look to the States to take the lead on assessments of non-
Federal.
    But through that program, and the interagency committee and 
the safety board, then lay out policies, procedures and 
guidelines and priorities of where to focus the limited amount 
of funds that I am sure would be available.
    Ms. Tauscher. Mr. Rabbon?
    Mr. Rabbon. If I might add, you are talking of 
approximately 730 miles of non-Federal levees in the delta area 
for your area of interest. So that is a major problem. The 
State has been providing some minimal funding to help support 
the maintenance of those non-Federal levees. But as the General 
had said, the way this legislation is written, these levees 
will be a part of the program. The downside is because they are 
non-Federal, they will probably not be eligible for Federal 
programs where they can receive funding.
    At this point, I might toss out a very rough number the 
State has put together to make the delta levees, just the 
critical delta levees, reasonably flood resistant and 
reasonably seismic resistant. That number is $5 billion.
    Ms. Tauscher. Money well spent in my opinion.
    But let's just say this. I think we have identified a 
rhetorical problem, that is non-trivial to say the least. And I 
am very anxious to work with the Chairman on this. Because in 
our specific case, you have a confluence of issues that are 
very hot button issues. You have private property and property 
rights. You have basic, completely unregulated levee 
construction, levee maintenance, to the effect that it exists.
    But at the same time, I think no one can dismiss the fact 
that this is highly critical infrastructure, not only to health 
and safety, water quality, the agricultural business, and then 
you have the seismic issue, which on top of just the low 
maintenance and bad construction and private property domain 
that these levees exist in, in California obviously every once 
in a while the earth shakes and bad things can happen.
    So I am very anxious, Mr. Chairman, to work with you, 
because obviously we want to get captured. But once again, we 
have to be very mindful of private property rights and the fact 
that that is an issue that we have to deal with as we look to 
find a way to regulate and maintain and protect. Thank you very 
much.
    Mr. Duncan. Thank you very much, Ms. Tauscher.
    Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. When you are going 
about doing a geotechnical review and you do borings on native 
soil, it gives you a lot of insight as to what you are looking 
at, because you know what the structure of the soil is at 
different levels. But once you move soil and it is moved by 
man, it takes on a much more less substantial tone, it tends to 
be more prone to wear from water, to erosion and such.
    So how do you go about doing an assessment for risk on 
levees, General, that you are unaware exactly of how they were 
put together originally?
    General Riley. Yes, sir, if we are unaware, if we don't 
have any of the plans or specifications or anybody that has 
worked on that project, soil borings would clearly help 
determine the strength and stability of the levee. Then we 
would have to look at all the conditions surrounding that 
levee, the hydrologic conditions, what kind of development 
around it, what is the latest flood of record, what is the 
history of flooding in that area, to determine how it responded 
during the past floods. So all those kinds of factors would be 
taken into account to determine not just the structural 
stability, but how it would act within the system of levees.
    Mr. Miller. So you are going to do a hydrology report to 
determine the amount of flow to a region.
    General Riley. Yes.
    Mr. Miller. You are going to do borings on private and 
State levees where you don't have specifications available to 
you. What is the cost going to be per mile to do an assessment 
that is a realistic assessment?
    General Riley. Yes, sir, I have asked that question and 
there is no answer to that, because it would be so changeable, 
depending on the conditions.
    Mr. Miller. It would not be inexpensive.
    General Riley. Yes, sir.
    Mr. Miller. That is where this whole argument starts to run 
into a problem, because to do an adequate risk assessment, 
developing safety standards for each individual levee, and they 
would vary based on construction and design, what would you 
have to do to accomplish that?
    General Riley. Sir, what you would have to do is, depending 
on, you would have to look at all the design records, all the 
construction records, the record of flooding, and do a survey 
of the height and the width of the levees, if there is any 
question about how it was built, then you would want to go with 
soil borings. Then you do the H&H, the hydraulics and hydrology 
modeling, to run models of the floods through that area to see 
how that would respond. So that's where the expense would come.
    And of course, we would look to the States to do that and 
take the lead for non-Federal levees. But what we would want to 
do is have it all in the data base, so that everybody could 
look at it and see and touch and feel and manipulate.
    Mr. Miller. I had costs given to me that could equal 
$60,000 per mile? Does that sound reasonable?
    General Riley. That is not unrealistic.
    Mr. Miller. Okay, so $60,000 per mile times how many miles 
of levees are you going to review?
    General Riley. The Corps has 9,000 that we--
    Mr. Miller. How many haven't you reviewed that we are 
considering you reviewing, private and otherwise?
    General Riley. I'm not sure I could even guess a number on 
the total non-Federal levees.
    Mr. Miller. This $20 million could be--
    General Riley. Oh, no, sir, you are talking the $20 
million, the $30 million in the appropriations last year, we 
proposed another $20 million for the inventory, setting up the 
data base, the methodology for assessments. And just to get to 
the most critical Federal levees, that would be ones that we 
built and maintained, build and turn over to States and 
maintain or incorporate in our system or the National Flood 
Insurance Program, can be up to $400 million to assess, the 
Federal. The non-Federal is separate from that, of course.
    Mr. Miller. Then we get to the next question, which I have 
a problem with. Once this is accomplished, and once we 
determine that the levees are safe, your comments said that we 
should require flood insurance for up to a 500 year flood on 
any area subject to inundation should a levee fail. How 
realistic is that? If you build a dam and you mitigate an area, 
that will take it out of the 100 year floodplain. You build a 
dam or a levee, and you take it out of the 500 year floodplain.
    The 500 year floodplain is a very, very large area, in many 
cases. Don't you think that's an unrealistic requirement for 
the Federal Government to place on people to have to get flood 
insurance in those 500 year floodplain areas, when we have 
taken it out of the impact?
    Ms. Pogue. I don't, and here is why. First of all, as the 
General mentioned, I think one of the things that is very, very 
important which is why it is important, which is what you are 
getting to, to linking floodplain management with levee safety 
and dam safety, is I do not know with the dams that I have in 
Rhode Island what the areas of inundation are, exactly what 
those areas of inundation are.
    I think if one thing has been pointed out through the 
various pieces of legislation on the Hill since Katrina is 
people need to know the risks. Whether it is in the FEMA Map 
Mod program, whether it is in the levee safety program, people 
really need to understand why they are at risk, where they are 
at risk and how they are at risk. So I do think it is 
important.
    One other thing that I think, though, when you talk about 
mandatory purchase of flood insurance, getting to this residual 
risk issue, is I think that there needs to be a better 
understanding of what we are talking about when we are talking 
about the policy costs of what FEMA calls a preferred risk 
policy. People can live in a 500 year floodplain, which as you 
say, it can be very, very large, or as we say, fat.
    However, a preferred risk policy which has the same 
coverage can only cost anywhere from like $122 a year. So we 
are not talking about people living way far away from water or 
a water course and having to pay $5,000 annual premiums. The 
preferred risk policy, which also covers those people in a 500 
year floodplain, is much less expensive.
    Mr. Miller. If you take an area such as the Sacramento 
area, it is the second largest flood plain in the Nation other 
than the Mojave Desert, you are taking into consideration a 
huge area of development. And the closer you get to the river 
area, the higher the assessment is going to be based on the 
insurance premiums.
    I think it is a huge windfall for insurance companies. But 
I am not sure it is a Federal mandate that should be applied. I 
think that the States or local agencies should apply that 
mandate, whether the Federal Government designed a standard 
that States must comply.
    So I have a problem with the Federal Government making that 
mandate. If the State wants to do it, Massachusetts, 
California, they want to implement that, then I think that is 
wholly reasonable. But I think it is wholly unreasonable for 
the Federal Government to place a mandate.
    Thank you, Mr. Chairman.
    Mr. Duncan. Very good point, Mr. Miller.
    Mrs. Schmidt.
    Mrs. Schmidt. Yes, I have a question for you, Ms. Pogue. I 
am sorry I am late, I had to vote on another bill. But I was 
reading some of the remarks that you had at the end of your 
testimony. They are pretty extensive in which you would like to 
see included in the language of the bill.
    Have you had a cost assessment of some of these as well as 
a property assessment of some of these requirements that you 
would like to see added to the bill?
    Ms. Pogue. I am sorry, could you be more specific in terms 
of what in particular?
    Mrs. Schmidt. Let me go back and look. Page 9 of 10, 
Section 7. You want us to consider delaying the legislation to 
set up a national levee safety program until the inventory is 
completed in three years, whereupon added data is available to 
design such a program, if included. You recommend adding after 
economically, socially and environmentally, you add and to 
build public awareness of the risks and to build the State 
capacity for levee safety programs.
    I just want to know, in wordsmithing such as this, there is 
usually a cost attached to these things. Have you done a cost 
analysis of what this would add to the burden of the Federal 
Government?
    Ms. Pogue. No, I have not. It is difficult to do a cost 
analysis which is why I think what we have said, in agreement 
with everybody else on the panel, it is difficult to try to 
quantify the magnitude of the problem when we don't even know 
the size of the problem, because we don't know how many levees 
are out there, what condition they are in or so forth. Which is 
why under Section 7 in that paragraph, the emphasis really is 
on getting the inventory competed, not only the inventory in 
terms of the number and location, but also the actual risk, how 
much risk this is posing to this many people. Then you can 
start working with costs to try to determine what this is going 
to cost.
    Mrs. Schmidt. I don't have any other questions at this 
time, thank you.
    Mr. Duncan. Thank you very much, Ms. Schmidt.
    Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman.
    Another cost question. I think, Ms. Pogue, you are 
absolutely right, we have to figure out what the inventory is 
and the condition of it as we move forward or we are never 
going to know exactly what it is. I think Mrs. Schmidt, your 
question is--that is an appropriate question and that is why I 
guess we are really trying to get to the bottom of it.
    In the levee safety bill, do you think that there needs to 
be, we need to strengthen the section concerning cost benefit 
analysis? Where do we build a levee? You mentioned, Ms. Pogue, 
that we shouldn't be building them in undeveloped areas. But 
are there places that there are levees today that we should 
look at and say, and there is mitigation, move people out, they 
have done that in my hometown of Altoona, Pennsylvania. There 
is a floodplain there and we finally got eight houses, we have 
given them the money and they have moved out.
    So should we strengthen the cost benefit analysis so that 
when we are deciding to strengthen levees we ought to be making 
that assessment?
    Ms. Pogue. I think that is why there were suggestions made 
in there in terms of socially and economically and so forth. 
When levees were built, and again this gets back to the 
inventory and knowing what design standard it is, and what the 
risk is that that particular levee poses, when we target, if 
you will, certain levees, we are talking about those that are 
high risk and medium risk, and why? Because as you are saying, 
those are the ones that were built, maybe not to an adequate 
standards, but subsequently, a lot of development occurred on 
the other side of the levee, which probably wasn't intentioned 
when the levee was originally built.
    So I think when you are looking at socioeconomic factors, 
and I think Mr. Rabbon talked about, and perhaps Dr. Nicholson, 
about how with the Army Corps guidance in terms of looking at a 
cost benefit analysis, we sort of need to add two things in 
there, and that is public safety, health and welfare. And I 
think that hopefully will tip the cost benefit analysis.
    Mr. Shuster. Right. General, your thoughts on cost benefit 
analysis?
    General Riley. Yes, sir, I clearly agree. Within our 
principles and guidelines, there remains a great deal of 
flexibility. A little more than a year ago, we published 
engineering regulations which descried that all of our planning 
studies will look at not just the national economic 
development, but also regional economics, environmental and 
what is categorized as other social effects, where loss of life 
would be a very important factor. So we are requiring all of 
our planning studies to look at all four of those accounts.
    We state you must identify the national economic 
development alternative, but select that one which best meets 
the needs of the Nation. So we have already directed that those 
kinds of factors be considered. In our budgeting process as 
well, not just our planning process, but our budgeting process, 
risk to loss of life is also a factor in our budgeting.
    Mr. Shuster. I saw in New Orleans, what the Chairman was 
saying about earlier, I am no engineer, but when I was in New 
Orleans, where the breach occurred, I don't know which one, 
maybe 17th Street, Canal Street, there were yards, the levees 
were part of people's yards. There were trees planted in it. 
Across the canal on the other side, there was an access road, a 
barrier, then the buildings started.
    So again, from an amateur's eye or layman's eye, it just 
seemed obvious to me that that had to contribute to the failure 
of the levee, having the trees in people's back yards and other 
structures there.
    In your analysis in New Orleans, I saw the breakdown where 
it was somewhere between $3.5 billion and $10 billion to raise 
the standards of the levees, but 8 percent of the population in 
some off those outlying parishes, about 8 percent, was going to 
cost $3 billion or $4 billion. My staff did a quick analysis 
that is $250,000 per person, man, woman and child. That just 
seems to me that if I lived there and somebody offered me, not 
$250,000, but some kind of money, they would grab it and run 
out of there, and we could use it for some other purpose.
    The second question I have, have you learned anything from 
our international partners around the world? For instance, the 
Dutch, I know they build their levees to the 15,000 year 
floodplain, which I don't know who was around 15,000 years ago 
to be able to determine that. But what are your thoughts about 
that, General?
    General Riley. Yes, sir. We have the Dutch on our planning 
teams. We have them also on the forensics team, as well as the 
Japanese, who have great experience in this. So we are clearly 
eager to accept any and all advice in our interagency 
performance evaluation team, which Dr. Nicholson is doing the 
external review on.
    We have 50 different agencies and organizations represented 
in that. So we are serious about bringing in all the expertise 
we possibly can get.
    Mr. Shuster. Do any of the rest of you care to comment on 
anything you have learned internationally from the Dutch or the 
Italians? Even the Russians in St. Petersburg have a 
significant concern up there, with that city.
    Mr. Nicholson. Yes, as well, we have, in our assessment 
team, when we went to New Orleans, we had both Japanese and 
Dutch participation. And as well, we have Dutch participation 
on our review panel of the Corps' investigation.
    Ms. Pogue. I will make one comment. In February I was 
invited as the chair of ASFPM to speak before the French 
Parliament. They had quite a gathering, over 200 people from 
around Europe. The one comment I will make, which is less on 
structural design and so forth, is more on the people's psyche. 
In those areas of the country, where they have been at this for 
a much longer time, there is just an absolute accepted practice 
of mitigation. It is just accepted, it is believed in, it is 
without question and it is looked upon as an investment rather 
than expense.
    So I think it is sort of in people's behavior, it is much 
different over there in terms of they accept the risk and they 
know the risk and they are willing to do something about it.
    Mr. Shuster. Is that the French or just Europeans in 
general? Or are you talking about the Dutch?
    Ms. Pogue. Well, there was a Dutch panelist who advocated 
that, a German panelist and a French panelist, particularly in 
the Noire Valley and in those areas.
    Mr. Shuster. Mitigation meaning moving people or building 
up stronger?
    Ms. Pogue. Mitigation--exactly. Mitigation meaning moving 
people if need be, meaning elevating structures, meaning don't 
build there to begin with. Basically long term looks at 
reducing flood impacts.
    Mr. Shuster. My time is up, so I will yield back, Mr. 
Chairman.
    Mr. Duncan. Are you through, or did you want something 
else?
    Mr. Shuster. I have another question if that is all right.
    Mr. Duncan. Go right ahead.
    Mr. Shuster. On the Dam Safety Bill, which the levee safety 
program is modeled after, could you comment on, I think Ms. 
Pogue, you mentioned there were some weaknesses in it. Could 
you all sort of comment on what you think the Dam Safety Bill 
needs to strengthen, as well as, I think you touched on the Dam 
Safety Bill, $10 million is not enough? I think you are right.
    Ms. Pogue. The Dam Safety Bill, first of all, thank God, 
they did it when they did it. I will say, if not for that bill 
and that program, Rhode Island would never have figured out how 
many dams we have and how many are at risk and how many are 
categorized. So it is a great starting point.
    The disconnect, however, is that dams are built or dams are 
taken down and there is no sort of, and the General referred to 
it in sort of a watershed concept in terms of planning and 
management, looking at that more holistic approach.
    So unfortunately, I think what is happening, at least in 
our State, and many States with the Dam Safety Bill, is they 
are not incorporating floodplain management principles when 
dams are built or taken down or so forth, or when there is 
development on the other side of a dam or as a levee. So I 
think the point we are trying to make is start with that, but 
then you really need to incorporate the principles of 
floodplain management into levee design and safety.
    Mr. Shuster. Anybody else?
    Mr. Rabbon. One very short comment, which I think we need 
to pay attention to, because of what we have here, California 
has an outstanding dam safety program. It was because there was 
a dam failure and people lost their lives.
    Mr. Shuster. My district does not have Johnstown, 
Pennsylvania, but I live about 35 miles from there and over 
2,000 people in the late 1800s were killed because that dam was 
not properly constructed.
    Anybody else care to comment?
    General Riley. Sir, the only comment I would make, not on 
the Act itself, but on the implementation, the Corps does have 
the authority in that Act to inspect any dam, regardless of 
Federal or not. We have not done that, primarily one, we would 
want the States to request our assistance, and when they do 
that, then we assist. Nor is there any general funding to do 
that.
    The other piece is the upgraded data base, geospatial data 
base, it would be best to use it for that, too. Of course, we 
have that technology now. Not the funding to do that, but that 
is one of those things that we could do better in the 
implementation.
    Mr. Duncan. Mr. Shuster, thank you very much. I think we 
are getting close to some votes. Mr. Taylor has a couple of 
follow-up questions.
    Mr. Taylor. Thank you, Mr. Chairman.
    General, and again, I don't want to cast aspersions on the 
efforts of this bill, because it is certainly a noble cause. My 
question is the difference between identifying problems and 
fixing problems. And I guess the for instance I would like to 
use is, what was the dollar amount of levees that the Corps had 
identified prior to August 1 of 2005 that became in effect an 
unfunded requirement to be fixed, just in the New Orleans area? 
Could you give me an idea?
    General Riley. No, sir, I don't think I could right now. I 
would have to take that one for the record. Would you please? 
Because the one that sticks out in my mind is I remember going 
all the way back to 1971, the Coast Guard at New Orleans being 
told they were going to move their base so the Industrial Canal 
locks, which were getting ready to fail in 1971, could be 
moved. It is now 2005, and if my memory serves me right, those 
Industrial Canal locks are still sitting in the exact same 
place.
    So that is just one for instance of what I guess is going 
to be a billion, multi-billion dollar tab of things you had 
identified prior to the storm that needed to be fixed, but for 
lack of funding didn't. And again, so I guess I just want to 
point out that it is pretty easy to identify problems. The hard 
part for this Congress has been coming up with the funds to fix 
those things once you identify that. But I really would like to 
have that for the record.
    Thank you, Mr. Chairman.
    Mr. Duncan. I thank you very much, Mr. Taylor. Certainly 
you are correct about that.
    Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. I really have no 
questions, because I am hopping between three subcommittee 
meetings. But as a scientist, I am fascinated with this topic. 
I appreciate the evidence you brought, and I appreciate your 
holding the hearing, Mr. Chairman. With that, I will yield 
back.
    Mr. Duncan. Thank you very much.
    Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman. To the 
panelists, in most of today's testimony, there is general 
criticism that the funding levels in H.R. 4650 are insufficient 
to meet the need. So what would each of you suggest would be a 
more appropriate level of funding for the scope of levees 
included?
    Mr. Nicholson. I will go ahead and speak. As you mentioned, 
my spoken testimony here, we suggested approximately doubling 
the appropriations amount, essentially front-end loading that 
for the inventory, which has to be the starting point of this. 
So essentially put that $20 million a year for the first three 
years to get that inventory done. Before we have that 
inventory, we don't really know where to go.
    Ms. Pogue. I think at this point, we had gone somewhere 
between--I feel like I am playing with monopoly money, doubling 
or tripling, but the point being, as Dr. Nicholson is saying, 
it does need to be front-end loaded, so that you can get the 
inventory started and start to get an idea of what the 
magnitude of the problem is, as I had mentioned.
    Mr. Rabbon. NAFSMA does not have a recommendation for the 
additional amount of funding, but we do concur the first step 
must be the levee inventory. And after that, I think it would 
be easier to propose a number.
    General Riley. Yes, ma'am, our planning right now, of 
course we have $30 million that you provided last December, $20 
million in our 2007 budget. It looks to get through our phasing 
of the inventories over the period of the next three years we 
would need about $20 million a year, which would be inclusive 
of that that's already been either provided or in our budget.
    Now, to move on to an assessment phase, that is a different 
story, which we really don't have a true estimate. The bill 
asks us to develop the methodology to do that assessment. So we 
are in the process of doing that now.
    Ms. Johnson. Thank you very much to the witnesses. Thank 
you, Mr. Chairman.
    Mr. Duncan. Thank you.
    Dr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman.
    As you know, FEMA and the Corps are placing a lot of 
scrutiny on levees throughout the Country, including in my 
district. Is it possible to investigate the integrity of the 
levees in a satisfactory way without requiring outright 
certification?
    My second question is, should there be different 
requirements concerning Federal versus non-Federal. What is 
your thinking on those questions?
    General Riley. Sir, if I could address the first one, there 
is, of course, a FEMA requirement for certification for those 
levees in the National Flood Insurance Program. We certify that 
both structurally and in the hydrology, we would have to model 
the 100 year storm to go through there and see how that would 
respond, and determine the appropriate height.
    You separate that now from your structural question, and it 
is certainly possible to structurally determine the capability 
of a levee to determine, and its capability to withstand a 
certain year of floods. So we could determine the assessment of 
a levee, whether it is a 20 year storm of 50 year storm or 100 
or 200. Separate from the FEMA's national flood insurance 
program.
    Mr. Boozman. How about the Federal versus the non-Federal, 
different standards.
    General Riley. Sir, the standards ought to be the same. 
There is no question. And there are different categories, and 
the data base will have all the different categories, but 
certainly standards ought to be the same.
    Mr. Boozman. Government has a tendency to overreact 
sometimes when major events occur and that's not to suggest 
that what we're talking about is inappropriate. I am very 
supportive of the Chairman.
    Along those same lines, regarding the FEMA mapping, I know 
there is some talk of areas in Arkansas that might get remapped 
in such a way that would cause problems with regard to the 
current usage, where we've never had any problems. What is your 
feeling? Do you feel like there is a tendency to overreact in 
this area?
    General Riley. Sir, the Administration has proposed a 
national levee inventory in its budget for next year. So that 
is our proposal. So we don't think it is an overreaction. We 
think it makes eminent sense to have that inventory to know 
what we have out there and then to allow us then to focus on 
the assessments on the most critical ones.
    Mr. Boozman. Thank you, Mr. Chairman.
    Mr. Duncan. Thank you, Dr. Boozman.
    General Riley, I am not sure I was understood or was clear 
a while ago about, or that it was clear to me what you said 
about where you stand now with the $30 million that was in the 
supplemental. I thought I heard you say something about three 
years time. Where are you?
    General Riley. Sir, right now--
    Mr. Duncan. People make comments to me throughout the 
hearing and sometimes I miss part of the answers. What did you 
say?
    General Riley. In our inventory, we have got the four 
phases planned in our inventory, Mr. Chairman. Phase one is to 
begin that geospatial data base, and then phase two, begin to 
debate against that, phase three, by the end of 2000 [sic], 
then incorporate and refine the data base and bring in all the 
Federal and non-Federal levees into the data base.
    That, by the end of next year, up to about $40 million to 
do that, those two pieces. And then another, phase four, when 
you complete this detailed inventory, another $20 million to 
$40 million. So that is what I was saying is, with the $30 
million appropriated, the $20 million in our budget, that will 
be necessary to get this moving and it will get it off to a 
great start for the next two years. What we would need probably 
to complete that is about $20 million a year for the following 
two years.
    Mr. Duncan. So if I understood you correctly, it would take 
you about four years from now to complete the inventory?
    General Riley. Yes, sir.
    Mr. Duncan. Okay.
    And Mr. Rabbon, can you tell us where you stand? We have 
been hearing and reading about all the rains in the Sacramento 
area and so forth. I know that you have, or the State of 
California has declared an emergency regarding their levees. I 
am told that you are in the process of repairing 24 critical 
levees. Are most of those in that area that we are hearing 
about? Or what is the situation?
    General Riley. Yes.
    Mr. Duncan. You are going to complete that by the end of 
this year, is that correct?
    Mr. Rabbon. The intent is for the State of California and 
the Corps of Engineers to complete construction on the 24 
critical erosion sites. And those have been identified 
primarily because the levees that we are looking at protect 
highly urbanized areas. We actually have over 180 erosion sites 
throughout the Sacramento River flood control system.
    Mr. Duncan. All right. Well, we are getting into these 
votes now. Let me just, I am not going to be able to ask all 
these questions. But I do want to ask one of Ms. Pogue and Dr. 
Nicholson, separate questions. Ms. Pogue, in your testimony, 
you suggest that the Federal Government, including the Corps of 
Engineers, should not be performing the detailed engineering 
assessments for non-Federal levees. Who should be responsible, 
and why do you say that or suggest that?
    Ms. Pogue. I think again that gets back to what 
Representative Boustany brought up, and that is that it is a 
Federal, State and local problem. It needs to be shared. I 
think when those levees are regionally owned, county owned or 
local or State owned, they bear the burden of trying to have 
those engineered and surveyed.
    So it is either going to be engineering staff on State 
departments, which we don't have in Rhode Island, so it is 
basically the private sector, private engineers. But I think 
that burden again goes back to the States and goes back to the 
local governments to bear that brunt.
    Mr. Duncan. Well, on most things, we find that the private 
sector, and then the local and State governments can do things 
a little more cheaply and economically than the Federal 
Government. Do you find that also?
    Ms. Pogue. Not only do I agree with that, but I think also 
often, more expeditiously as well.
    Mr. Duncan. All right. Dr. Nicholson, you suggest setting 
up a system of independent peer reviews on all these federally 
funded levee projects. We have added some of that for the 
bigger projects into the WRDA bill that we passed. Why do you 
think that is important, and how much do you think something 
like that would cost? Do you have any rough guess?
    Mr. Nicholson. No, I don't have an estimate on the costs 
associated. But what we find is that in most cases, certainly 
for large dams, even if those are constructed by Federal 
agencies, those will most often have an external peer review. 
Because there is no one single, even though there may be a 
standard, every dam is going to be different, the levees now in 
the same way that dams may be protecting or providing flood 
mitigation for urbanized areas.
    Mr. Duncan. Well, the problem I see, already they are 
talking about $60,000 per mile for just the assessment phase. 
If you start adding in all kinds of extra things already, then 
I just don't, it is just like talking about the Dutch. We 
certainly want to use their expertise and their suggestions. 
But we are so much bigger, that we can't really do exactly what 
they have done all over this Country without spending our 
entire Federal budget on some of these things. So that is the 
problem, I think.
    Mr. Nicholson. I don't think really it is a whole lot of 
extras. Having an external peer review is not necessarily going 
to have near the cost of doing the evaluations. When we talk 
about the costs of actually doing evaluations or assessments of 
these embankments--
    Mr. Duncan. Sir, I tell you what. If we are going to take 
your suggestion seriously, though, why don't you send us an 
estimate specifically, as specific and detailed as possible, as 
to how much that would cost and how much time it would add to 
the process, okay?
    Mr. Nicholson. We could look into that, sure.
    Mr. Duncan. Okay. Thank you very much. I appreciate the 
testimony and the answers of all the witnesses. This has been a 
very good panel. Thank you very much, and that will conclude 
this hearing.
    [Whereupon, at 11:40 a.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8280.001
    
    [GRAPHIC] [TIFF OMITTED] T8280.002
    
    [GRAPHIC] [TIFF OMITTED] T8280.003
    
    [GRAPHIC] [TIFF OMITTED] T8280.004
    
    [GRAPHIC] [TIFF OMITTED] T8280.005
    
    [GRAPHIC] [TIFF OMITTED] T8280.006
    
    [GRAPHIC] [TIFF OMITTED] T8280.007
    
    [GRAPHIC] [TIFF OMITTED] T8280.008
    
    [GRAPHIC] [TIFF OMITTED] T8280.009
    
    [GRAPHIC] [TIFF OMITTED] T8280.010
    
    [GRAPHIC] [TIFF OMITTED] T8280.011
    
    [GRAPHIC] [TIFF OMITTED] T8280.012
    
    [GRAPHIC] [TIFF OMITTED] T8280.013
    
    [GRAPHIC] [TIFF OMITTED] T8280.014
    
    [GRAPHIC] [TIFF OMITTED] T8280.015
    
    [GRAPHIC] [TIFF OMITTED] T8280.016
    
    [GRAPHIC] [TIFF OMITTED] T8280.017
    
    [GRAPHIC] [TIFF OMITTED] T8280.018
    
    [GRAPHIC] [TIFF OMITTED] T8280.019
    
    [GRAPHIC] [TIFF OMITTED] T8280.020
    
    [GRAPHIC] [TIFF OMITTED] T8280.021
    
    [GRAPHIC] [TIFF OMITTED] T8280.022
    
    [GRAPHIC] [TIFF OMITTED] T8280.023
    
    [GRAPHIC] [TIFF OMITTED] T8280.024
    
    [GRAPHIC] [TIFF OMITTED] T8280.025
    
    [GRAPHIC] [TIFF OMITTED] T8280.026
    
    [GRAPHIC] [TIFF OMITTED] T8280.027
    
    [GRAPHIC] [TIFF OMITTED] T8280.028
    
    [GRAPHIC] [TIFF OMITTED] T8280.029
    
    [GRAPHIC] [TIFF OMITTED] T8280.030
    
    [GRAPHIC] [TIFF OMITTED] T8280.031
    
    [GRAPHIC] [TIFF OMITTED] T8280.032
    
    [GRAPHIC] [TIFF OMITTED] T8280.033
    
    [GRAPHIC] [TIFF OMITTED] T8280.034
    
    [GRAPHIC] [TIFF OMITTED] T8280.035
    
    [GRAPHIC] [TIFF OMITTED] T8280.036
    
    [GRAPHIC] [TIFF OMITTED] T8280.037
    
    [GRAPHIC] [TIFF OMITTED] T8280.038
    
    [GRAPHIC] [TIFF OMITTED] T8280.039
    
    [GRAPHIC] [TIFF OMITTED] T8280.040
    
    [GRAPHIC] [TIFF OMITTED] T8280.041
    
    [GRAPHIC] [TIFF OMITTED] T8280.042
    
    [GRAPHIC] [TIFF OMITTED] T8280.043
    
    [GRAPHIC] [TIFF OMITTED] T8280.044
    
    [GRAPHIC] [TIFF OMITTED] T8280.045
    
    [GRAPHIC] [TIFF OMITTED] T8280.046
    
                                    

</pre></body></html>
